TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                   Better Information Is Needed to Assess
                  Ongoing Efforts to Expand Self-Assistance
                     and Virtual Services to Taxpayers



                                            July 5, 2012

                              Reference Number: 2012-40-073




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 E-mail Address | TIGTACommunications@tigta.treas.gov
 Website        | http://www.tigta.gov
                                                     HIGHLIGHTS


BETTER INFORMATION IS NEEDED                            and Virtual Services are an effective and
TO ASSESS ONGOING EFFORTS TO                            efficient means of providing customer service.
EXPAND SELF-ASSISTANCE AND                              Additionally, these services are not consistently
VIRTUAL SERVICES TO TAXPAYERS                           offered to taxpayers who may need or desire
                                                        them.
                                                        The IRS is collecting data to determine the
Highlights                                              number of taxpayers who use Facilitated
                                                        Self-Assistance and Virtual Services located in
Final Report issued on July 5, 2012                     Taxpayer Assistance Centers and Volunteer
                                                        Program sites. In some instances, it is gathering
Highlights of Reference Number: 2012-40-073             customer satisfaction ratings. Nevertheless, it
to the Internal Revenue Service Commissioner            has not established goals and measures for all
for the Wage and Investment Division.                   four initiatives to gauge their success, including
                                                        data to determine if any or all are cost effective.
IMPACT ON TAXPAYERS
                                                        In addition, auditors had difficulty contacting or
Taxpayers have different preferences and                locating Volunteer Program sites that offered
behaviors that affect their service needs. The          Facilitated Self-Assistance or Virtual Services,
IRS’s challenge is to meet taxpayer needs and           and the IRS does not publish on IRS.gov the
determine how to provide the best services with         Taxpayer Assistance Centers offering Facilitated
its limited resources. The IRS is implementing          Self-Assistance.
or testing four strategic initiatives to examine the
feasibility of Facilitated Self-Assistance and          WHAT TIGTA RECOMMENDED
video conferencing technology as alternative
service delivery options for taxpayers who seek         TIGTA recommended that the IRS develop
traditional face-to-face contacts at Taxpayer           sufficient measures (including a customer
Assistance Centers and Volunteer Program                satisfaction survey) and goals for the Facilitated
sites.                                                  Self-Assistance initiative in the Taxpayer
                                                        Assistance Centers that will allow the IRS to
WHY TIGTA DID THE AUDIT                                 determine if the initiative is cost effective and is
                                                        meeting expectations. After establishing a
This audit was initiated to determine the               baseline, the IRS should develop goals and
effectiveness of the IRS’s efforts to expand            measures for the Virtual Services initiative in the
taxpayer assistance using self-assistance and           Volunteer Program sites to ensure it is meeting
virtual technology service options. Providing           expectations. In addition, the IRS should
taxpayers with alternative service delivery             emphasize to employees and volunteers the
methods should afford the IRS opportunities to          need to consistently offer taxpayers the option of
provide services in locations that are not staffed      using Facilitated Self-Assistance when available
or are unable to meet taxpayer demand.                  at their Taxpayer Assistance Center or
WHAT TIGTA FOUND                                        Volunteer Program site. These alternative
                                                        service options should be accurately publicized
A limited number of taxpayers have used these           on IRS.gov.
alternative services: 33,636 used Facilitated
Self-Assistance in the Taxpayer Assistance              IRS management agreed with three of the four
Centers and 5,938 at the Volunteer Program              recommendations and plans to take actions to
sites, while 8,514 used Virtual Services at the         improve its efforts to expand and monitor
Taxpayer Assistance Centers and 2,101 at the            taxpayer assistance using self-assistance and
Volunteer Program sites. Although these                 virtual technology service options. IRS
service options appear to be viable alternatives        management partially agreed with one
to serve more taxpayers and preserve limited            recommendation, but stated that usage is a
resources, the IRS does not yet have sufficient         better measure than a customer satisfaction
data to determine if Facilitated Self-Assistance        survey for the Facilitated Self-Assistance
                                                        initiative.
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                             July 5, 2012


 MEMORANDUM FOR COMMISSIONER, WAGE AND INVESTMENT DIVISION


 FROM:                       Michael E. McKenney
                             Acting Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Better Information Is Needed to Assess Ongoing
                             Efforts to Expand Self-Assistance and Virtual Services to Taxpayers
                             (Audit # 201140047)

 This report presents the results of our review to determine the effectiveness of the Internal
 Revenue Service’s efforts to expand taxpayer assistance using self-assistance and virtual
 services. This audit is included in the Treasury Inspector General for Tax Administration’s
 Fiscal Year 2012 Annual Audit Plan and addresses the major management challenge of
 Providing Quality Taxpayer Service Operations.
 Management’s complete response to the draft report is included as Appendix IV.
 Copies of this report are also being sent to the Internal Revenue Service managers affected by the
 report recommendations. Please contact me at (202) 622-6510 if you have questions or
 Randee Cook, Acting Assistant Inspector General for Audit (Returns Processing and Account
 Services), at (770) 617-6434.
                          Better Information Is Needed to Assess Ongoing Efforts to
                          Expand Self-Assistance and Virtual Services to Taxpayers




                                            Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 5
          Measures and Goals Are Needed to Ensure Initiatives
          Provide an Effective Means to Improve Customer Service
          and Voluntary Compliance ........................................................................... Page 5
                    Recommendations 1 through 3:......................................... Page 14

          Information on IRS.gov for Facilitated Self-Assistance
          and Virtual Services Is Incomplete or Inaccurate ......................................... Page 15
                    Recommendation 4:........................................................ Page 16

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 18
          Appendix II – Major Contributors to This Report ........................................ Page 20
          Appendix III – Report Distribution List ....................................................... Page 21
          Appendix IV – Management’s Response to the Draft Report ...................... Page 22
                      Better Information Is Needed to Assess Ongoing Efforts to
                      Expand Self-Assistance and Virtual Services to Taxpayers




                                            Background

Every year, millions of taxpayers turn to the Internal Revenue Service (IRS) for help in preparing
their tax returns, either to obtain answers to tax law questions or to obtain forms to file their tax
                                     returns. Providing quality customer service to taxpayers is the
                                     IRS’s first step toward achieving taxpayer compliance.
                                        Federal tax law is complex. While many individual taxpayers
                                        file simple tax returns and receive refunds, tax problems often
                                        result from misunderstanding the tax law and the taxpayers’
                                        tax obligations. Ensuring that taxpayers understand and
                                        comply with applicable tax laws is part of the IRS’s mission.
                                   Taxpayers have different preferences and behaviors that affect
                                   their service needs. In addition, their education levels,
incomes, and physical abilities play key roles in determining what type of service best meets
their needs. The IRS’s challenge is to determine how to provide the best services with its limited
resources.
The IRS offers taxpayers traditional face-to-face assistance at its Taxpayer Assistance Centers
(the IRS’s walk-in offices) and its Volunteer Program1 sites.
Taxpayer Assistance Centers
The Taxpayer Assistance Centers, geographically located throughout the United States, offer
several services for taxpayers who prefer face-to-face assistance. Taxpayers can receive
assistance, for example, with resolving tax problems, obtaining tax forms, learning how the tax
law applies to their individual tax situations, making payments on tax accounts, and preparing
tax returns (if they meet certain requirements). Figure 1 shows the number of taxpayers
receiving specific types of assistance at a Taxpayer Assistance Center for Fiscal Year2 2011.




1
  The Volunteer Program generally offers free tax help to individuals who make $50,000 or less and need assistance
in preparing their own tax returns. The Volunteer Program is comprised of the Volunteer Income Tax Assistance
Program, the Tax Counseling for the Elderly Program, and the Volunteer Income Tax Assistance Grant Program.
2
  A fiscal year is a 12-consecutive-month period ending on the last day of any month, except December. The
Federal Government’s fiscal year begins on October 1 and ends on September 30.
                                                                                                          Page 1
                       Better Information Is Needed to Assess Ongoing Efforts to
                       Expand Self-Assistance and Virtual Services to Taxpayers



                        Figure 1: Taxpayer Assistance Center Contacts
                                for Fiscal Year 2011 (in millions)
      Tax                                                                    Customer
    Accounts          Forms            Other              Tax Law            Accounts        Tax Returns
    Contacts         Contacts         Contacts3           Contacts           Resolved         Prepared         Total
       3.7              0.6              1.4                 0.3                 0.1               0.3          6.4

Source: IRS management information reports.

The Volunteer Program
The IRS sponsors the Volunteer Program, which provides education and services year-round,
such as no-cost Federal tax return preparation and electronic filing, to help elderly, disabled,
low- to moderate-income, and limited-English-proficient taxpayers in their own neighborhoods
and local communities. In Fiscal Year 2011, the Volunteer Program’s 88,527 volunteers, at
12,486 sites, prepared 3,188,524 tax returns.
The IRS is now offering taxpayers self-assistance and virtual technology4 options
The IRS is expanding the ways it provides customer service
in an attempt to ensure taxpayer’s meet their Federal
income tax obligations. The IRS envisions designing
taxpayer services that will help move the IRS closer to
providing many of the services now available in the private
sector.
Facilitated Self-Assistance
The IRS offers Facilitated Self-Assistance kiosks in 37 of
the 398 Taxpayer Assistance Centers and 8775 of
approximately 12,500 Volunteer Program sites. Taxpayers
in the Taxpayer Assistance Centers can access these public computer terminals to perform any
task they can conduct on IRS.gov, the IRS’s public Internet site, such as:



3
  “Other Contacts” includes processing Form 2063, U.S. Departing Alien Income Tax Statement, date-stamping tax
returns brought in by taxpayers, and helping taxpayers with general information such as addresses and directions to
other IRS offices or other Federal Government agencies.
4
  Virtual technology is a means to conduct face-to-face communications between taxpayers and volunteers from
different locations using broadband Internet access, facsimile, and video. Taxpayers and IRS employees
communicate through video conferencing.
5
  The IRS provided auditors with a list of 877 Volunteer Program sites that were expected to participate in
Facilitated Self-Assistance for the 2012 Filing Season (the period from January to mid-April when most taxpayers
file their individual tax returns). However, we determined that not all sites listed had a Facilitated Self-Assistance
kiosk or were using the kiosk(s).
                                                                                                               Page 2
                       Better Information Is Needed to Assess Ongoing Efforts to
                       Expand Self-Assistance and Virtual Services to Taxpayers



        Prepare and electronically submit tax returns using the IRS’s Free File Program.6
        Print tax forms and publications.
        Research answers to tax law questions.
        Apply for Employer Identification Numbers.
There are two to four kiosks at each of the 37 Taxpayer Assistance Centers. One kiosk per
Center is configured for customers requiring accessibility solutions and is loaded with JAWS®
and Zoom Text Magnifier software.7
Taxpayers using Facilitated Self-Assistance in the Volunteer Program sites are provided specific
Internet addresses to access tax preparation software to complete and file their tax returns.
Taxpayers at the Volunteer Program sites are not encouraged to use IRS.gov.
Virtual Services
The IRS offers Virtual Services in 10 Taxpayer Assistance Centers, two partner locations, and
74 Volunteer Program sites.8 Virtual Services provides assistance in locations that are not
staffed or are unable to meet taxpayer demand.
Virtual Services uses video monitors to offer video conferencing that allows IRS assistors and
volunteers to interact virtually with taxpayers who are at a different location. Taxpayers at
Taxpayer Assistance Centers can obtain help with tax law or tax account questions and other
face-to-face services offered there. Taxpayers at Volunteer Program sites can obtain help
preparing their tax returns.
This review focused on four initiatives using Facilitated Self-Assistance and Virtual Services:
        Facilitated Self-Assistance in Taxpayer Assistance Centers.
        Facilitated Self-Assistance in Volunteer Program sites.
        Virtual Services in Taxpayer Assistance Centers.
        Virtual Services in Volunteer Program sites.
This review was performed at the Wage and Investment Division Headquarters in Atlanta,
Georgia, during the period August 2011 through March 2012. Additionally, auditors made




6
  The Free File Program offers free online tax preparation and electronic filing through commercial tax return
preparation companies accessed via IRS.gov, the IRS’s public Internet website.
7
  Software that allows the kiosks to be used by low-vision or sight-impaired taxpayers.
8
  The IRS provided auditors with a list of 74 Volunteer Program sites that were to offer Virtual Services during the
2012 Filing Season. However, not all sites on the list actually offered Virtual Services.
                                                                                                             Page 3
                       Better Information Is Needed to Assess Ongoing Efforts to
                       Expand Self-Assistance and Virtual Services to Taxpayers



anonymous visits or phone calls to 23 sites9 during January and February 2012. We conducted
this performance audit in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit
objective. We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objective. Detailed information on our audit objective,
scope, and methodology is presented in Appendix I. Major contributors to the report are listed in
Appendix II.




9
 This was a judgmental sample (a nonstatistical sample, the results of which cannot be used to project to the
population).
                                                                                                                Page 4
                   Better Information Is Needed to Assess Ongoing Efforts to
                   Expand Self-Assistance and Virtual Services to Taxpayers




                                 Results of Review

Measures and Goals Are Needed to Ensure Initiatives Provide an
Effective Means to Improve Customer Service and Voluntary
Compliance
Both Facilitated Self-Assistance and Virtual Services are relatively new service options offered
by the IRS.
      Facilitated Self-Assistance, piloted in Fiscal Year 2008 in the Taxpayer Assistance
       Centers, was implemented during the 2011 Filing Season in 37 Taxpayer Assistance
       Centers and 106 Volunteer Program sites. Facilitated Self-Assistance received national
       recognition as an area of customer service improvement by the U.S. Department of the
       Treasury and was highlighted as an example of compliance with Executive Order 13571,
       Streamlining Service Delivery and Improving Customer Service.
      Virtual Services was piloted in Fiscal Year 2011 in 32 Volunteer Program sites, and
       74 sites were to participate in Fiscal Year 2012. Additionally, in Fiscal Year 2012,
       Virtual Services is being piloted at 10 Taxpayer Assistance Centers and two Volunteer
       Program partner sites.
Although these service options appear to be viable alternatives to serve more taxpayers and
preserve limited resources, the IRS does not yet have sufficient data to determine if Facilitated
Self-Assistance and Virtual Services are an effective and efficient means of providing customer
service. Additionally, these services are not consistently offered to taxpayers who may need or
desire them.
The IRS is collecting data to determine the number of taxpayers who use Facilitated
Self-Assistance and Virtual Services located in Taxpayer Assistance Centers and Volunteer
Program sites. In some instances, it is gathering customer satisfaction ratings. Nevertheless, it
has not established goals and measures for Facilitated Self-Assistance at the Taxpayer Assistance
Centers or for Virtual Services at the Volunteer Program sites to gauge the success of the
initiatives, including data to determine if any or all are cost effective.
Facilitated Self-Assistance in the Taxpayer Assistance Centers
In Fiscal Year 2010, the IRS declared the Facilitated Self-Assistance pilot a success and installed
100 kiosks and 37 printers in 37 Taxpayer Assistance Centers during Filing Season 2011, at a
cost of almost $1 million. To determine the usage of the kiosks, the IRS counts the number of
times the user agreement is accepted. Taxpayers must accept the user agreement before they can


                                                                                            Page 5
                        Better Information Is Needed to Assess Ongoing Efforts to
                        Expand Self-Assistance and Virtual Services to Taxpayers



access IRS.gov. In Fiscal Year 2011, the IRS reported that approximately 41,500 taxpayers used
the Facilitated Self-Assistance kiosks.
For Fiscal Year 2012,10 106,261 taxpayers visited Taxpayer Assistance Centers with Facilitated
Self-Assistance kiosks requesting services that could be accomplished using a kiosk. Of these
106,261 taxpayers, 33,636 (32 percent) used a kiosk.
The IRS evaluates Facilitated Self-Assistance by the number of taxpayers who use it. IRS
officials stated they are pleased with the current level of taxpayer participation in Facilitated
Self-Assistance. IRS management’s emphasis for Fiscal Year 2012 was to increase the number
of taxpayers who use Facilitated Self-Assistance. It
plans to use Fiscal Year 2012 results as a baseline to              The IRS has not established
establish goals for Fiscal Year 2013.                             short- or long-term goals on what
                                                                  it expects to accomplish with the
However, the IRS does not have data to show whether            Facilitated Self-Assistance kiosks.
taxpayers who use the kiosks complete their tasks or           Establishing goals allows the IRS
whether they still need assistance from an IRS employee.          to better plan for the future.
It also does not have data to determine why 68 percent of
the taxpayers who visited a Taxpayer Assistance Center for a service that could be accomplished
through a kiosk decided not to use a kiosk. During the pilot, about half of the eligible taxpayers
chose to try the new service. During Fiscal Year 2012,11 approximately a third of all Taxpayer
Assistance Center customers have used this service.
The IRS is currently marketing Facilitated Self-Assistance as a “no waiting in line option” for
assistance. The IRS also hopes to change taxpayer behavior by educating taxpayers about
IRS.gov so that taxpayers will handle any future inquiries and actions without traveling to a
Taxpayer Assistance Center.
Nonetheless, the IRS does not currently have the data to determine if it is changing taxpayer
behavior or if the initiative is cost effective. It also has not established short- or long-term goals
on what it expects to accomplish with the Facilitated Self-Assistance kiosks. For example, goals
might include the number of taxpayers the IRS expects to migrate either to the kiosks or to their
home computers or increasing the number of Taxpayer Assistance Centers that offer the
Facilitated Self-Assistance kiosks. Establishing goals allows the IRS to better plan for how to
allocate its limited resources.
The IRS planned to add an automated customer satisfaction survey to the kiosks, but did not
receive the funding. Instead, the IRS provides the standard customer survey cards to all
taxpayers who visit a Taxpayer Assistance Center. The survey card does not have questions
specific to Facilitated Self-Assistance, but it does provide space for taxpayers to write in
comments.

10
     As of March 16, 2012.
11
     As of March 16, 2012.
                                                                                               Page 6
                      Better Information Is Needed to Assess Ongoing Efforts to
                      Expand Self-Assistance and Virtual Services to Taxpayers



The IRS requested funding to expand Facilitated Self-Assistance to an additional 20 Taxpayer
Assistance Centers for Fiscal Year 2012, but did not receive it. The IRS also prepared a funding
request to expand Facilitated Self-Assistance to an additional 50 Taxpayer Assistance Centers12
for Fiscal Year 2013, but the request was not included in the IRS’s final budget. The IRS used
data from the Fiscal Year 2009 pilot in the budget request, stating that 95 percent of participants
said they would use the IRS website in the future. Of those who needed forms or publications,
83 percent stated they would use the IRS website. The IRS also stated that this data indicates
likely migration of taxpayers to lower-cost channels.
Without similar current data, the IRS will not be able to determine which Taxpayer Assistance
Centers and taxpayers would benefit most from installation of the Facilitated Self-Assistance
kiosks or be able to update future budget requests with more recent data.
Taxpayers are not consistently offered the option of using Facilitated Self-Assistance at the
Taxpayer Assistance Centers
Facilitated Self-Assistance consists of a Taxpayer Assistance Center employee helping taxpayers
who choose to use the kiosks navigate IRS.gov to resolve their tax question or issue. Center
management has to determine if it is more beneficial to assist taxpayers directly (one at a time at
the desk) or help them with Facilitated Self-Assistance and possibly serving up to four taxpayers
at a time. IRS officials stated the policy is to have staff available to facilitate at all times, with
adjustments made as needed when staff levels are low due to staff absences.
None of the four Taxpayer Assistance Centers visited during January and February 2012 offered
auditors the use of the Facilitated Self-Assistance kiosks. Additionally, observations at the same
Taxpayer Assistance Centers showed that employees only sporadically offered taxpayers the
kiosks.
Signs informing visitors of the availability of Facilitated Self-Assistance were observed at three
of the four Taxpayer Assistance Centers. As of April 2012, IRS management confirmed that
signs for Facilitated Self-Assistance are in all sites where the service is available. Television
terminals were available in all four Taxpayer Assistance Centers but did not advise visitors of the
availability of Facilitated Self-Assistance. IRS management stated that it is piloting a program to
show informational videos on televisions at the Taxpayer Assistance Centers. The pilot began in
Fiscal Year 2011 at 16 Centers.
Center employees stated, and auditors observed, that most taxpayers who visited a Taxpayer
Assistance Center were reluctant to try doing things for themselves, including obtaining tax
forms and preparing tax returns. Taxpayers declined to use Facilitated Self-Assistance because,
for example:



12
  The funding was estimated at a cost of $330,000 per site for workstations equipped with computer terminals and
printers.
                                                                                                          Page 7
                   Better Information Is Needed to Assess Ongoing Efforts to
                   Expand Self-Assistance and Virtual Services to Taxpayers



      They have limited experience with computers or they have limited English proficiency.
      They had chosen Taxpayer Assistance Centers as their service channel of choice and just
       did not want to do it themselves.
One Taxpayer Assistance Center did not offer Facilitated Self-Assistance to taxpayers with tax
law questions because the tax law research tool on IRS.gov may cause the taxpayer to need
further services from an assistor. Center employees also believe the diversity of the taxpayers
who visit Taxpayer Assistance Centers makes Facilitated Self-Assistance a difficult option.
Employees stated that they believe Facilitated Self-Assistance is successful with the younger
population, who may be more familiar with computers.
Marketing Facilitated Self-Assistance, obtaining Taxpayer Assistance Center employee
commitment to the initiative, and ensuring there is sufficient staffing to assist taxpayers who use
a kiosk have been ongoing concerns throughout the pilot and implementation and still need to be
addressed. In its Fiscal Year 2013 request for funding for Facilitated Self-Assistance in an
additional 50 Taxpayer Assistance Centers, the IRS requested funding for 50 seasonal assistors
and one analyst.
Facilitated Self-Assistance in Volunteer Program sites
For a number of years, Volunteer Program partners have been providing taxpayers the
opportunity to use a computer and tax preparation software to complete and electronically file
                                   their tax returns. Starting in Fiscal Year 2011, the IRS began
        Volunteers play an         supporting Facilitated Self-Assistance, primarily using the
  increasingly important role in   partners’ computers and tax preparation software available
    helping the IRS achieve its    through the Free File Program. Volunteer Program partners
    goal of improving taxpayer
      service and facilitating
                                   determine which sites participate.
       participation in the         In Fiscal Year 2011, Facilitated Self-Assistance was offered
           tax system.              at smaller, appointment-only Volunteer Program sites, but
                                    the IRS stated that it encouraged the partners to focus on
                                    high-traffic sites in Fiscal Year 2012. In addition, the IRS
                                    discussed with partners the option of having Facilitated
                                    Self-Assistance sites only or using Facilitated Self-
                                    Assistance when the site was very busy.
The IRS reported that Facilitated Self-Assistance operated in 106 Volunteer Program sites in
Fiscal Year 2011 and taxpayers prepared and filed 4,213 tax returns using the available tax
preparation software. However, there were problems tracking the correct number of tax returns
prepared because the Volunteer Program sites did not use the proper codes on the tax returns. In
addition, there are no data to determine how many qualified taxpayers chose not to use
Facilitated Self-Assistance.



                                                                                            Page 8
                         Better Information Is Needed to Assess Ongoing Efforts to
                         Expand Self-Assistance and Virtual Services to Taxpayers



The IRS reported that 877 Volunteer Program sites expected to offer Facilitated Self-Assistance
in the 2012 Filing Season. The IRS has established the following Facilitated Self-Assistance
goals for the Volunteer Program for Fiscal Year 2012:
          11 percent of the high-volume13 Volunteer Program sites will offer Facilitated
           Self-Assistance terminals.
          19,560 tax returns will be prepared using Facilitated Self-Assistance terminals.
As of March 18, 2012, the IRS reported 5,938 tax returns were prepared through Facilitated
Self-Assistance in the Volunteer Program sites.
The IRS drafted a survey for the partners to obtain feedback from taxpayers during the
2012 Filing Season. The survey was not implemented because the IRS did not have sufficient
time to submit the survey to the Office of Management and Budget for approval. The IRS stated
that instead, for the 2012 Filing Season, it would engage partners for feedback regarding lessons
learned and future marketing and implementation strategies. Additionally, some partners are
administering their own taxpayer surveys.
Volunteer Program sites listed as offering Facilitated Self-Assistance did not always offer it
At seven of the eight Volunteer Program sites visited, either the sites were not offering
Facilitated Self-Assistance to taxpayers, Facilitated Self-Assistance was not available, or no
taxpayers accepted the service at the time of our visits. One of the eight sites was not open,
although the IRS had listed the site as being open for operation on that day. In most instances,
volunteers confirmed terminals were available for Facilitated Self-Assistance, but the terminals
had not been used, for example, because:
          Volunteers were available to prepare the tax returns when the taxpayer arrived and they
           did not see the need to offer the service.
          Taxpayers who were offered the service declined it.
          A volunteer at a site requiring appointments believed that if a taxpayer made an
           appointment to have their tax return prepared by a volunteer, they would not want to try
           to prepare it themselves.
          Volunteers did not know how to screen taxpayers to use the Facilitated Self-Assistance
           terminals.
Virtual Services in Taxpayer Assistance Centers
Early in Calendar Year 2011, the IRS Commissioner requested a feasibility test of video
conferencing technology in the IRS’s Taxpayer Assistance Centers. During the test, the IRS


13
     High volume is defined as preparing 100 or more tax returns per year.
                                                                                              Page 9
                           Better Information Is Needed to Assess Ongoing Efforts to
                           Expand Self-Assistance and Virtual Services to Taxpayers



received a briefing from the Social Security Administration about its experience using video
conference technology. In June 2011, the IRS Commissioner approved the implementation of
the technology in the Taxpayer Assistance Centers to roll out in October 2011. The pilot
deployment costs are estimated to be approximately $700,000, which are almost entirely from
                                          the one-time start up costs.
     The IRS established the following
     objectives for Virtual Services in
                                                 The pilot is being conducted in five high-traffic
     the Taxpayer Assistance Centers:            Taxpayer Assistance Centers, five unstaffed or
                                                 seasonal Taxpayer Assistance Centers, and two
            Provide service delivery
             alternatives outside of IRS         external partner sites. The IRS estimated it would cost
             facilities.                         $600,000 to provide face-to-face services in the
            Enhance the utilization of IRS      targeted pilot sites for a year.
             resources.
                                            Virtual Services in the Taxpayer Assistance Centers
            Smooth staffing and workload
             imbalances.
                                            has clear objectives as well as established procedures
            Increase access to face-to-face
                                            to gather taxpayer feedback and to assess performance.
             service where currently        The IRS is planning to use the security guard costs (for
             unavailable.                   locations where a security guard was only for the
                                            Taxpayer Assistance Center) and travel costs (costs for
IRS assistors to travel to unstaffed Taxpayer Assistance Centers) as measures to gauge the
cost-effectiveness of the initiative. In addition, the IRS plans to measure:
              Increased customer service due to improved wait time.
              Customer satisfaction through surveys.
Initial customer survey results show that Virtual Services appears to be a viable solution to
assist taxpayers visiting Taxpayer Assistance Centers
For Fiscal Year 2012,14 8,514 taxpayers in 10 Taxpayer
Assistance Center locations and two partner sites used
                                                                           The Virtual Services customer
Virtual Services. Fourteen percent of the taxpayers                    satisfaction survey administered from
(336 of 2,463) who used Virtual Services from                            October 31 to December 30, 2011,
October 31 to December 30, 2011, responded to a                         showed that 87 percent of taxpayers
customer satisfaction survey (with response rates                          were satisfied with the service.
varying by site from 0 percent to 48 percent).15




14
   From October 24, 2011, (when the pilot began) to March 24, 2012.
15
   Approximately 25 percent of the paper survey responses had errors. Additionally, even though the overall
response rate is higher than the IRS’s customer satisfaction survey for the Taxpayer Assistance Centers, a low
survey response rate at some Taxpayer Assistance Centers will impose limitations on the data collected to determine
if Virtual Services is an effective and efficient means of alternative customer service.
                                                                                                         Page 10
                       Better Information Is Needed to Assess Ongoing Efforts to
                       Expand Self-Assistance and Virtual Services to Taxpayers



The Virtual Services customer satisfaction survey showed that 280 (87 percent) of
32316 taxpayers reported being satisfied to very satisfied with video assistance. Only
28 (9 percent) of 323 taxpayers reported being dissatisfied to very dissatisfied. Additionally:
        Ninety percent of the respondents who visited a high traffic site reported higher
         satisfaction with video assistance in comparison to 82 percent of the respondents who
         visited an unstaffed/seasonal or external partner site.
        Respondents consistently reported satisfaction with picture clarity, audio clarity, and the
         flow or timing of communication.
        Ninety-two percent of the respondents reported that they would be willing to use video
         assistance again during a future visit. Only 8 percent of the respondents stated they
         would be unwilling to receive service through video assistance in a future visit.
The survey results also identified the following limitations:
        Lack of privacy – 10 respondents17 at five sites reported the sites did not provide
         sufficient privacy.
        Limitation in scope – six respondents18 reported some tasks were not available such as
         obtaining a copy of transcripts, making payments, and requesting or submitting forms.
Based on these findings, the IRS has identified the following opportunities for improvement:
        Ensure that Virtual Services is consistently offered to taxpayers.
        Ensure that those routed to Virtual Services have an eligible task.
        Monitor taxpayer concerns regarding privacy (offer headsets as an alternative to using
         speakers).
        Ensure the customer satisfaction survey is consistently offered and/or provide an
         electronic version of the customer satisfaction survey in order to increase the response
         rate and maximize data collection accuracy.
Virtual Services in Volunteer Program sites
Virtual Services in Volunteer Program sites was piloted in Fiscal Year 2011. Because of
problems with coding the tax returns, the IRS could not definitively determine the number of tax
returns prepared through Virtual Services in the Volunteer Program sites during Fiscal



16
   Of the 336 total respondents, 323 responded to the question regarding their satisfaction with video assistance.
17
   Of the 336 total respondents, 138 included an open-ended comment on the survey. Ten of the 138 made a
comment about the lack of privacy.
18
   Out of 138 respondents.
                                                                                                             Page 11
                       Better Information Is Needed to Assess Ongoing Efforts to
                       Expand Self-Assistance and Virtual Services to Taxpayers



Year 2011. For Fiscal Year 2012, the IRS stated it would ensure that the intake sites19 were
utilizing the proper procedures so that tax returns prepared through the intake sites would be
counted. The IRS stated that as of March 18, 2012, volunteers had prepared 2,101 tax returns
through Virtual Services at a Volunteer Program site.
This initiative uses the same process as traditional          Virtual Services uses the same
Volunteer Program sites except that volunteers and           process as traditional Volunteer
                                                                 Program sites except that
taxpayers are not in the same location. In lieu of a
                                                               volunteers and taxpayers are
face-to-face meeting, technology is used to connect               not in the same location.
the volunteer and the taxpayer. Although suitable for
remote locations where it is more difficult to find a
traditional Volunteer Program tax preparation site, this approach can also be used in urban
settings to supplement traditional Volunteer Program services.
The IRS stated that the main cost for this initiative was to create, produce, replicate, and
distribute the marketing video, Alternative Filing Methods. The video was produced for under
$10,000 and copies can be reproduced at a nominal cost. The partners hosting the Volunteer
Program sites provide the needed equipment for the Virtual Services sites.
Although the IRS has not established clear goals for this initiative, it stated that Virtual Services
was first approved to help Volunteer Program partners assist taxpayers living in rural or remote
areas who are typically hard to reach. From a memo by IRS management:
         In cases where taxpayers and partners are located in areas where use of a traditional VITA/TCE
         [Volunteer Income Tax Assistance/Tax Counseling for the Elderly] site is not practical, SPEC
         [Stakeholder Partnerships, Education, and Communication] partners may use the Alternative
         VITA/TCE Site Operating model. The model advocates using unique and innovative methods
         through the incorporation of two components, an Intake Site and a Preparation Site. The Intake
         Site will be located in a hard-to-reach area. Generally, tax returns are not prepared at the Intake
         Site. Any volunteer, IRS-certified or non-IRS certified, will review the taxpayer’s proof of identity,
         source documents, and initiate the first step of the return preparation process. The Intake Site
         will fax, e-mail, or mail copies of the taxpayer’s documents necessary to complete the return to
         the Preparation Site.

The IRS plans to measure results by the number of Volunteer Program sites that provide Virtual
Services and the number of tax returns filed. It plans to use Fiscal Year 2012 results to establish
a baseline for this service in the Volunteer Program.
However, the IRS does not have an accurate list of the Volunteer Program sites that are
participating in Virtual Services for the 2012 Filing Season. The IRS provided us with a list of
74 Volunteer Program sites that were to participate in Virtual Volunteer Income Tax Assistance

19
   There are two components to Virtual Services at Volunteer Program sites, an intake site and a preparation site.
Taxpayers who are not located near a volunteer site can submit their tax return information to volunteers at intake
sites who will forward the information to a qualified and trained volunteer located in a preparation site to prepare the
tax return.
                                                                                                              Page 12
                   Better Information Is Needed to Assess Ongoing Efforts to
                   Expand Self-Assistance and Virtual Services to Taxpayers



during the 2012 Filing Season, but we were able to confirm that Virtual Services was offered at
only two of the seven sites contacted or visited.
The IRS is committed to exploring new ways to improve taxpayer services, but
needs to ensure measures and goals are established for all initiatives
The IRS plans to continue the current four initiatives, while at the same time it is planning to
develop other taxpayer services to help it move closer to providing services now available in the
private sector and other Government agencies. Some initiatives under consideration or in
planning are:
      Multilevel Kiosks in the Taxpayer Assistance Centers. The IRS would like to offer
       taxpayers multilevel kiosks at Taxpayer Assistance Centers similar to an airline kiosk.
       Taxpayers would use the kiosk when they first enter the Center to determine what service
       they are seeking. The multilevel kiosk would then direct them to a Facilitated
       Self-Assistance kiosk, if appropriate.
      Payment Processing. Accepting taxpayer payments at Taxpayer Assistance Centers is a
       significant service the IRS provides taxpayers, but the process is time consuming and
       uses a significant number of IRS resources. The IRS has requested funding to implement
       payment kiosks at Taxpayer Assistance Centers in Fiscal Year 2014.
      Expanding the Use of Video Technology. The IRS would like to explore the possibility
       of using video technology for taxpayers to talk with a Taxpayer Assistance Center
       employee from a location other than an IRS office or Volunteer Program site, including
       from other Government agencies or a taxpayer’s home. It is also looking into the option
       of accessing multiple services or functions from one virtual service delivery station. The
       IRS stated these options would be considered after the pilot of Virtual Services.
As the IRS moves forward with the new initiatives, as well as the Facilitated Self-Assistance and
Virtual Services initiatives, it needs to ensure it has sufficient information to determine which
initiatives are the most cost effective and meet the IRS’s goal of providing quality taxpayer
service. In today’s environment of limited resources, funding may not be available for all
initiatives. To make sound business decisions, decision makers need to know the expectations or
goals of the initiatives, how the IRS plans to achieve the goals, and if it is achieving them. This
is not possible without established goals or measures.
Only the Virtual Services in the Taxpayer Assistance Centers has fully developed goals and
measures necessary to assess the initiative. The IRS piloted Facilitated Self-Assistance in the
Taxpayer Assistance Centers for three years and determined it to be a viable customer service
option. However, expansion has been limited and the IRS is relying on dated information from
the pilot to expand to 50 additional Taxpayer Assistance Centers.
The IRS stated that Virtual Services would be prioritized over Facilitated Self-Assistance in the
Taxpayer Assistance Centers if only one initiative could be funded. IRS officials believe that it

                                                                                           Page 13
                   Better Information Is Needed to Assess Ongoing Efforts to
                   Expand Self-Assistance and Virtual Services to Taxpayers



is more difficult to change taxpayer behavior, which is what the Facilitated Self-Assistance
initiative relies on to be successful. Virtual Services allows for improved use of current staffing
levels and expanding geographic coverage to locations underserved or with no staff available.
Virtual Services allows the IRS to reach more taxpayers. However, Facilitated Self-Assistance
may change taxpayer behavior, thereby causing a permanent long-term effect. IRS management
cannot effectively prioritize initiatives without additional information. While we recognize the
value of each of these initiatives, the IRS needs more information to assess the effect these
initiatives have on taxpayer service.
Recommendations
The Commissioner, Wage and Investment Division, should:
Recommendation 1: Develop sufficient measures (including a customer satisfaction survey)
and goals for the Facilitated Self-Assistance initiative in the Taxpayer Assistance Centers that
will allow the IRS to determine if the initiative is cost effective and is meeting expectations.
       Management’s Response: The IRS agreed that measures and goals are critical for
       determining if the IRS’s Facilitated Self-Assistance initiative is cost effective and
       successfully meeting program expectations. However, given that Facilitated
       Self-Assistance use is entirely voluntary by taxpayers, IRS management considers usage
       to be a better measure than customer satisfaction surveys for purposes of determining
       program success. The goal for Fiscal Year 2013 is to increase Facilitated Self-Assistance
       usage, and the IRS is collecting data during Fiscal Year 2012 to establish a baseline
       measure against which future service levels will be compared.
Recommendation 2: After establishing a baseline, develop goals and measures for the
Virtual Services initiative in the Volunteer Program sites to ensure it is meeting expectations.
       Management’s Response: The IRS agreed with the recommendation and will
       develop appropriate measures to be used in evaluating whether the Virtual Services
       initiative is effectively meeting program goals and expectations.
Recommendation 3: Emphasize to employees and volunteers the need to consistently offer
taxpayers the option of using Facilitated Self-Assistance when it is available at their Taxpayer
Assistance Center or Volunteer Program site.
       Management’s Response: The IRS agreed with the recommendation and will
       emphasize to employees and volunteers the need to consistently offer the Facilitated
       Self-Assistance option, when available.




                                                                                            Page 14
                     Better Information Is Needed to Assess Ongoing Efforts to
                     Expand Self-Assistance and Virtual Services to Taxpayers



Information on IRS.gov for Facilitated Self-Assistance and Virtual
Services Is Incomplete or Inaccurate
Auditors had difficulty contacting or locating Volunteer Program sites offering Facilitated
Self-Assistance or Virtual Services. In addition, the IRS does not publish on IRS.gov the
Taxpayer Assistance Centers offering Facilitated Self-Assistance or the Volunteer Program sites
offering Virtual Services.
Facilitated Self-Assistance in Taxpayer Assistance Centers
IRS.gov lists each of the 398 Taxpayer Assistance Centers, along with the hours of operation and
the services provided. However, IRS.gov does not list the Facilitated Self-Assistance kiosks,
with a description of the service, as one of the service options provided. Listing Facilitated
Self-Assistance as a service would let taxpayers know that a computer is available at the Center
for them to complete a number of tasks with the assistance from an IRS employee such as
obtaining answers to tax law questions, preparing their tax return, or printing a tax form, with
virtually no wait time.
Facilitated Self-Assistance in Volunteer Program sites
The Volunteer Program sites participating in Facilitated Self-Assistance can be located on the
IRS.gov web page, “Free Tax Return Preparation for You by Volunteers.”
       Facilitated Self-Assistance
       In addition to traditional face-to-face tax preparation, the IRS is launching a self-assistance
       service at select locations. If individuals have a simple tax return and need a little help or do
       not have access to a computer, they can visit one of the participating tax preparation sites and
       an IRS-certified volunteer will guide them through the process.
       Find a Facilitated Self-Assistance site near you

However, the information for the sites is not always complete or accurate. Days and hours of
operation are not provided on the IRS.gov Facilitated Self-Assistance listing, and the website
does not contain all sites on the IRS’s list of sites dated February 6, 2012.
For the eight Volunteer Program sites offering Facilitated Self-Assistance selected from the
IRS’s list and compared to information on IRS.gov:
       Two of the eight were not listed on either the Volunteer Program Facilitated
        Self-Assistance or the traditional Volunteer Program site listings on IRS.gov.
       One of the eight was listed on the traditional Volunteer Program list but not on the
        Volunteer Program Facilitated Self-Assistance listing on IRS.gov.
IRS management is aware of the discrepancies with the Facilitated Self-Assistance Volunteer
Program sites on IRS.gov. In an effort to provide a separate listing of Facilitated Self-Assistance
on IRS.gov for Fiscal Year 2012, the IRS decided to report the information that was available.

                                                                                                    Page 15
                   Better Information Is Needed to Assess Ongoing Efforts to
                   Expand Self-Assistance and Virtual Services to Taxpayers



The IRS plans to have accurate and complete Facilitated Self-Assistance Volunteer Program site
information available for Fiscal Year 2013.
Virtual Services in Taxpayer Assistance Centers
The 10 Taxpayer Assistance Centers and two partner locations offering Virtual Services are
included in the Centers listed on IRS.gov. The three unstaffed Taxpayer Assistance Centers and
the two partner locations correctly show that only Virtual Services are provided and list the
services available. IRS.gov also lists the services that are not provided at the Centers that have
only Virtual Services. However, the IRS does not provide an explanation on what Virtual
Services entails.
Virtual Services in Volunteer Program sites
Virtual Services in Volunteer Program sites are not listed separately on IRS.gov. The IRS
provided auditors a list of Volunteer Program sites offering Virtual Services; however, the list
did not include days or hours of operation for 37 (50 percent) of the 74 sites. In addition, only
three (43 percent) of the seven Volunteer Program sites selected for contact or visit were listed
on IRS.gov. Attempts to contact or visit these three sites using the contact or the address
information on the IRS’s list and IRS.gov were unsuccessful. Auditors did not receive return
phone calls from two of the sites, and no one was at one site when we visited it.
We were able to observe Virtual Services offered at two Volunteer Program sites. Employees at
these two sites stated that the sites are advertised by their organizations to their consumers.
Attempts to contact or visit the other two Volunteer Program Virtual Services sites on the IRS’s
list resulted in the following:
      At one site, the volunteers stated that they did not prepare tax returns at that location and
       provided alternative locations.
      One site was not a Virtual Services intake site, but a tax return preparation site for the
       Virtual Services intake sites in the area.
If the IRS does not publicize complete and accurate listings of locations and services, taxpayers
will not be aware of the services available at local sites. The IRS is working on correcting the
inconsistencies on IRS.gov for the Volunteer Program sites.
Recommendation
Recommendation 4: The Commissioner, Wage and Investment Division, should ensure the
information on IRS.gov pertaining to the Taxpayer Assistance Centers and Volunteer Program
sites offering Facilitated Self-Assistance and Virtual Services is accurate and complete.
       Management’s Response: The IRS agreed with the recommendation. The Field
       Assistance function has updated the information presented on IRS.gov to ensure the
       description of services provided at the Taxpayer Assistance Centers is both accurate and

                                                                                             Page 16
           Better Information Is Needed to Assess Ongoing Efforts to
           Expand Self-Assistance and Virtual Services to Taxpayers



complete. The Stakeholder Partnerships, Education, and Communication function will
provide similar updates to the information provided for Volunteer Program sites. Regular
updates will be posted to ensure the information presented on the sites remains timely.




                                                                                Page 17
                       Better Information Is Needed to Assess Ongoing Efforts to
                       Expand Self-Assistance and Virtual Services to Taxpayers



                                                                                        Appendix I

            Detailed Objective, Scope, and Methodology

Our overall objective was to determine the effectiveness of the IRS’s efforts to expand taxpayer
assistance using self-assistance and virtual services. This audit included identifying industry best
practices related to Facilitated Self-Assistance and Virtual Services and assessing the
effectiveness of the following:
          Facilitated Self-Assistance in Taxpayer Assistance Centers.
          Facilitated Self-Assistance in Volunteer Program sites.
          Virtual Services in Taxpayer Assistance Centers.
          Virtual Services in Volunteer Program sites.
To accomplish our objective, we:
I.         Assessed the IRS’s decision to select the four Facilitated Self-Assistance and Virtual
           Services initiatives and determined if they best meet stakeholder and customer needs.
           A. Determined how the IRS selected these initiatives and obtained documentation and
              business cases for the initiatives, including any cost estimates and return on
              investment calculations.
           B. Determined if each initiative’s objectives, goals, and milestone dates were clearly
              defined and documented to ensure the IRS is able to measure its progress and success.
           C. Determined whether each initiative’s performance measures and expected outcomes
              were clearly defined and documented to ensure the IRS is able to measure its progress
              and success. In addition, ensured performance and outcome measures were
              consistent with established objectives, goals, and established milestones.
II.        Evaluated each initiative’s policies and procedures to ensure they are sufficient to meet
           IRS management’s objectives and goals. This included determining if procedures
           provide taxpayers with privacy and security to prevent identity theft.
III.       Determined if oversight is or will be sufficient to ensure the initiatives are implemented
           and milestones are met.
           A. Determined how each project team chose the sites to test or implement its initiative.




                                                                                               Page 18
                          Better Information Is Needed to Assess Ongoing Efforts to
                          Expand Self-Assistance and Virtual Services to Taxpayers



           B. Selected a judgmental sample1 of 23 sites offering these initiatives. We coordinated
              these visits so we could visit multiple sites and test multiple initiatives during one
              visit. Due to time, resource, and travel budget constraints, we did not select a
              statistical sample of sites to visit. The sites selected were:
                   Facilitated Self-Assistance in Taxpayer Assistance Centers – Tucson, Arizona;
                    Hartford, Connecticut; Atlanta, Georgia; and Providence, Rhode Island.
                   Facilitated Self-Assistance in Volunteer Program sites – Mesa, Arizona;
                    Prescott, Arizona; Tempe, Arizona; Clearwater, Florida; Fort Myers, Florida,
                    St. Petersburg, Florida; Tampa, Florida; and Atlanta, Georgia.
                   Virtual Services in Taxpayer Assistance Centers – Glendale, Arizona; Prescott,
                    Arizona (partner site); Tucson, Arizona; and Sarasota, Florida.
                   Virtual Services in Volunteer Program sites – Hayden, Arizona; Mesa, Arizona;
                    Payson, Arizona; St. Petersburg, Florida; Tampa, Florida (two sites); and
                    Crawford, Georgia.
IV.        Assessed the future plans for expanding the projects or initiating new self-assistance
           projects.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: management controls that apply to setting
program initiative goals and measures, tracking progress towards goals, and continued
monitoring of the implementation and effectiveness of efforts to expand taxpayer assistance
using self-assistance and virtual services. We reviewed these controls through interviews with
IRS management and an individual project coordinator and through reviews of project
documentation.




1
    A judgmental sample is a nonstatistical sample, the results of which cannot be used to project to the population.
                                                                                                               Page 19
                  Better Information Is Needed to Assess Ongoing Efforts to
                  Expand Self-Assistance and Virtual Services to Taxpayers



                                                                              Appendix II

                 Major Contributors to This Report

Augusta R. Cook, Acting Assistant Inspector General for Audit (Returns Processing and Account
Services)
Paula W. Johnson, Acting Director
Ken Carlson, Acting Audit Manager
Wilma Figueroa, Audit Manager
Pamela DeSimone Lead Auditor
Tanya Adams, Senior Auditor
Lynn Faulkner, Senior Auditor
Geraldine Vaughn, Senior Auditor




                                                                                     Page 20
                  Better Information Is Needed to Assess Ongoing Efforts to
                  Expand Self-Assistance and Virtual Services to Taxpayers



                                                                            Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Services and Operations, Wage and Investment Division SE:W
Director, Customer Assistance, Relationships and Education, Wage and Investment Division
SE:W:CAR
Director, Strategy and Finance, Wage and Investment Division SE:W:S
Director, Field Assistance, Wage and Investment Division SE:W:CAR:FA
Director, Stakeholder Partnership, Education and Communications, Wage and Investment
Division SE:W:CAR:SPEC
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Chief, Program Evaluation and Improvement, Wage and Investment Division
SE:W:S:PEI




                                                                                    Page 21
     Better Information Is Needed to Assess Ongoing Efforts to
     Expand Self-Assistance and Virtual Services to Taxpayers



                                                    Appendix IV

Management’s Response to the Draft Report




                                                           Page 22
Better Information Is Needed to Assess Ongoing Efforts to
Expand Self-Assistance and Virtual Services to Taxpayers




                                                      Page 23
Better Information Is Needed to Assess Ongoing Efforts to
Expand Self-Assistance and Virtual Services to Taxpayers




                                                      Page 24
Better Information Is Needed to Assess Ongoing Efforts to
Expand Self-Assistance and Virtual Services to Taxpayers




                                                      Page 25
Better Information Is Needed to Assess Ongoing Efforts to
Expand Self-Assistance and Virtual Services to Taxpayers




                                                      Page 26
